                          Limited Official Use




       Improved Internal Revenue Service Coordination Is
        Needed to Resolve Large Volumes of Fraudulent
                  Schedule C Refund Returns

                          September 2005

                 Reference Number: 2005-30-140




The Treasury Inspector General for Tax Administration (TIGTA) has
designated this audit report as Limited Official Use (LOU) pursuant to
Chapter III, Section 2 of the Treasury Security Manual (TD P 71-10) entitled,
“Limited Official Use Information and Other Legends.” Because this
document has been designated LOU, it may only be made available to
those officials that have a need to know the information contained within
this report in the performance of their official duties. This report must be
safeguarded and protected from unauthorized disclosure; therefore, all
requests for disclosure of this report must be referred to the Disclosure
Section within the TIGTA’s Office of Chief Counsel.




                          Limited Official Use
                                  Limited Official Use
          Improved Internal Revenue Service Coordination Is Needed to Resolve
                Large Volumes of Fraudulent Schedule C Refund Returns

                                                                                Appendix II


                           Major Contributors to This Report

Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate Programs)
Richard J. Dagliolo, Director
John Chiappino, Audit Manager
Carol Gerkens, Lead Auditor
Margaret Filippelli, Senior Auditor
Dave Clous, Information Technology Specialist




                                       Limited Official Use                            Page 2
